<html>
<title> - MARKUP OF H.R. 4617, THE STOPPING HARMFUL INTERFERENCE IN ELECTIONS FOR A LASTING DEMOCRACY ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                          

 
MARKUP OF H.R. 4617, THE STOPPING HARMFUL INTERFERENCE IN ELECTIONS FOR 
                        A LASTING DEMOCRACY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2019

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
                            ______
                          

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-768               WASHINGTON : 2020
          
         
         
         
         
                   Committee on House Administration
                             116th Congress

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois, Ranking 
SUSAN A. DAVIS, California               Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California


MARKUP OF H.R. 4617, THE STOPPING HARMFUL INTERFERENCE IN ELECTIONS FOR 
                        A LASTING DEMOCRACY ACT

                              ----------                              --
--------


                      WEDNESDAY, OCTOBER 16, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:56 p.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[Chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Butterfield, Fudge, Aguilar, Davis of Illinois, 
Walker, and Loudermilk.
    Staff Present: Sean Jones, Legislative Clerk; Lisa Sherman, 
Chief of Staff for Mrs. Davis of California; David Tucker, 
Parliamentarian; Eddie Flaherty, Chief Clerk; Mariam Malik, 
Staff Assistant; Hannah Carr, Staff Assistant; Khalil Abboud, 
Deputy Staff Director; Evan Dorner, Legislative Assistant for 
Mr. Aguilar; Lauren Doney, Deputy Chief of Staff for Mr. 
Raskin; Stephen Spaulding, Counsel--Elections; Tim Monahan, 
Minority Deputy Staff Director; Jesse Roberts, Minority 
Counsel; Cole Felder, Minority General Counsel; Courtney 
Parella, Minority Communications Director; and Jennifer Daulby, 
Minority Staff Director.
    The Chairperson. A quorum being present, the Committee will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time. Pursuant to Committee Rule 4 and clause 
2(h)(4) of House Rule XI, the Chair announces that she may 
postpone further proceedings today when a recorded vote is 
ordered on the question of approving a measure or matter or on 
adopting an amendment.
    We are expecting additional Members, but while we are 
waiting, we will proceed with our opening statements.
    This afternoon, we will consider H.R. 4617, the Stopping 
Harmful Interference in Elections for a Lasting Democracy, or 
SHIELD, Act. This comprehensive legislation will strengthen the 
resilience of our democracy and protect against foreign 
interference in elections, including by foreign governments.
    The 2020 Federal elections are fast approaching. Public 
confidence and trust in our elections is of the utmost 
importance. But foreign adversaries are working to undermine 
that trust. They use disinformation and discord as weapons to 
divide us and to attack our values of equality and freedom. 
They hope that our institutions will collapse under the 
pressure of the division, decay, and distrust that they sow.
    The need to act is urgent. Foreign adversaries, including 
Russia, are interfering in our elections right now. Former 
Special Counsel Mueller, back in July, testified that they are, 
quote, ``doing it as we sit here.''
    We have been warned repeatedly about this. The former 
Director of National Intelligence, Dan Coats, wrote earlier 
this year in his ``Worldwide Threat Assessment'' that, as the 
2020 elections advance, our, quote, ``adversaries and strategic 
competitors almost certainly will use online influence 
operations to try to weaken democratic institutions, undermine 
U.S. alliances and partnerships, and shape policy outcomes in 
the United States and elsewhere.''
    He also wrote that their tactics will include spreading 
disinformation, conducting hack and leak operations, or 
manipulating data in a more targeted fashion to influence U.S. 
policy actions on elections.
    Just last week, the Senate Select Committee on Intelligence 
released a report showing how the Kremlin's information warfare 
campaign was broad in scope and entailed objectives beyond the 
results of the 2016 election. This included using content to 
push Americans farther away from one another and to foment 
distrust in government institutions.
    The Senate report also found that no single group of 
Americans was targeted by Internet Research Agency (IRA) 
information operatives more than African Americans.
    Among the bipartisan Senate report's recommendations are 
for Congress to examine legislative approaches to ensure 
Americans know the sources of online political advertisements 
and to harmonize the rules that apply online with television, 
radio, and satellite communications.
    This Committee and this House have acted at least twice 
this year to shore up confidence in our elections. The House 
passed H.R. 1, the For the People Act, which included strong 
standards for ballot box election security as well as 
provisions to shut down loopholes that allow foreign money, 
including from foreign governments, to influence elections.
    The House passed 2722, the SAFE Act, which originated in 
this Committee and had some of its roots in Title III of H.R. 
1. It would set strong cybersecurity standards for election 
infrastructure and provide resources to States to replace 
paperless and other outdated systems with voter-verified paper 
ballot systems.
    Now we are turning to another element of election security. 
The SHIELD Act closes gaps in the law that allow foreign 
nationals and foreign governments to launder money into our 
elections. It promotes full transparency of the sources behind 
online advertising campaigns. It codifies a basic norm, that 
political committees should report offers of illicit campaign 
assistance from foreign governments to the FBI and to the FEC, 
rather than welcome interference from foreign governments.
    We should all be able to agree that we need to protect our 
democracy and with a sense of urgency. This should not be a 
partisan opinion. Nothing less than our national security is at 
stake.
    The Ranking Member has discussed his views on partisanship 
and democracy at previous markups, and I must stress for the 
record that many key elements of the SHIELD Act, including its 
incorporation of the Honest Ads Act, have strong Republican 
support.
    A July Quinnipiac poll found that, by an 87-to-7-percent 
margin, including 80 percent to 11 percent among Republicans, 
voters support requiring political campaigns to report any 
information they received from foreign governments to the FBI, 
a key component of Title I of the SHIELD Act. And voters say, 
78 to 13 percent, it is never acceptable for a Presidential 
campaign to obtain information on a political opponent from a 
hostile foreign power.
    The SHIELD Act also incorporates other elements of H.R. 1 
that Republicans supported unanimously during the amendment 
process, including expanded prohibitions on paid political 
advertising by foreign governments.
    The SHIELD Act has garnered support since its introduction 
from the NAACP, Public Citizen, Common Cause, the Brennan 
Center for Justice, Democracy 21 Network, and the End Citizens 
United Action Fund, as well as a letter received just this 
morning from the nuns, which is of particular meaning to me.
    So, with that, I will say that free and fair elections are 
the core of what it means to live in a democracy like ours. 
Free and fair elections are at the heart of what it means to be 
a citizen of the United States, and it is our solemn duty to 
defend them.
    I would now yield to the Ranking Member, Mr. Davis, for any 
opening comments he would like to make.
    [The statement of the Chairperson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Davis of Illinois. Thank you, Madam Chairperson, and 
thanks to the Committee.
    As the Chairperson noted, I have said time and time again, 
the biggest threat to our elections and the integrity of those 
elections is actually partisanship. As the Majority has pointed 
out, there are legitimate election security concerns that H.R. 
4617 aims to address that I know my Democratic colleagues and I 
agree on, which leads me to wonder: If the Majority knows we 
support large portions of this bill, why would they not work 
with us to find a bipartisan solution to our collective 
concerns?
    Once again, the Majority has chosen to continue this 
pattern we have seen all Congress where they rush legislation 
without any hearings or public discussion of the issues and 
insert poison pills into a bill that they know we will not 
support--all in an effort to prop up their impeachment efforts 
against the President.
    That is why we are here today: not to make real legislative 
progress on preventing foreign interference in our elections, 
but to push partisan politics for the Democratic agenda.
    We have marked up three comprehensive election security 
bills in this Committee in this Congress, and the partisan 
approach to every problem always ends with expanding the powers 
of the Federal Government, the highlight of this bill being 
that we are vastly expanding the powers of the Attorney General 
and--my personal favorite--defining legitimate news.
    What we aren't going to hear about today is the work done 
last Congress and earlier this Congress to provide funding for 
election infrastructure and to create unprecedented cooperation 
among the States and Federal stakeholders aimed at better 
securing our elections.
    What we aren't going to hear about today is how many of the 
private companies and online platforms mentioned in this bill 
are already taking important steps to help prevent election 
interference through social media.
    What we are not going to hear about today is how we are 
marking up this bill without a hearing so the American public 
can see who is paying for and supporting the ads they see in 
their social media feeds and won't actually stop the sort of 
interference that we saw from Russia in the 2016 election.
    Don't get me wrong; as the Chairperson said, there are 
provisions in this legislation that make sense. I like 
prohibiting foreign nationals from participating in ballot 
initiatives and requiring the Federal Election Commission to 
annually audit and report any foreign money in U.S. elections. 
I am also supportive of disclosing on online political ads.
    However, there are also provisions in this bill, like 
broadly defined requirements for who has to disclose ads, as 
well as applying aging TV regulations to internet advertising, 
that I cannot support because of the threat they pose to our 
First Amendment.
    I believe the SHIELD Act will have many unintended but 
severe consequences on the American people and a chilling 
effect on free speech--a fundamental right we in Congress have 
a responsibility to defend.
    H.R. 4617, in my opinion, is unfixable in its current form. 
The amendments we put forth today will only showcase the 
hypocrisy and flaws within this legislation. If we truly want 
to prevent the type of election interference that we saw in 
2016, we must put forth the strongest legislation possible that 
actually stands a chance at becoming law.
    We may never be able to prevent criminal activity, whether 
that is in our elections or in our day-to-day lives, but we can 
provide our law enforcement with the best tools and resources 
available.
    A better approach to concerns mentioned today would be to 
update the Foreign Agents Registration Act, which this 
legislation completely ignores. It is disappointing for the 
American people, who deserve a bipartisan bill that allows them 
to trust in their election system that actually stands a chance 
of becoming law.
    I look forward to debating my amendments that will make 
improvements to this partisan bill. Let us forget the partisan 
politics today and, instead, put the needs of the American 
people first.
    And thank you, Madam Chairperson, and I yield back the 
balance of my time.
    [The statement of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman yields back.
    Without objection, the opening statements of all other 
Members will be included in the record.
    The Chairperson. I now call up H.R. 4617, and the clerk 
shall report the title of the legislation.
    The Clerk. H.R. 4617. Short Title. This Act may be cited as 
the Stopping Harmful----
    The Chairperson. Without objection, the first reading of 
the bill is dispensed with. And, without objection, the bill is 
considered as read and open for amendment at any point.
    [The bill follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The Chair recognizes herself to offer an 
amendment in the nature of a substitute. The amendment has been 
made available in advance to all Members and is in front of 
each Member.
    The clerk shall designate the amendment.
    The Clerk. The Amendment in the Nature of a Substitute to 
H.R. 4617 Offered by Ms. Lofgren of California. Strike all 
after the----
    The Chairperson. Without objection, the amendment will be 
considered as read and be considered as original text for 
purposes of amendment and shall be open for amendment at any 
point.
    [The amendment of the Chairperson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. Now I would like to explain what is in the 
amendment.
    The amendment differs from the text of the SHIELD Act as 
introduced only in that it reserves Subtitle B of Title III, 
the Deceptive Practices and Voter Intimidation Prevention Act, 
because it is within the jurisdiction of the House Judiciary 
Committee, not the House Administration Committee. We consulted 
with the House Parliamentarian on this issue, and that was the 
advice that we received.
    Otherwise, the amendment in the nature of a substitute is 
the same as the bill as introduced and is organized by four 
titles.
    Title I enhances reporting requirements. First, it 
establishes a duty upon political committees to report to the 
FBI and the FEC illicit offers of campaign assistance from 
foreign governments, foreign political parties, their agents, 
and those on the sanctions list. It also includes the Honest 
Ads Act, bipartisan legislation that advances an important step 
in bringing rules of transparency to online political 
advertising.
    Title II closes loopholes and gaps in the law that could 
permit foreign nationals and foreign governments to influence 
elections. It codifies existing FEC regulations prohibiting 
foreign nationals from influencing decisions about campaign 
spending. It would require the FEC to conduct an audit of 
illicit money in elections and report its recommendations to 
Congress after every election cycle.
    It prohibits foreign spending in connection with ballot 
initiatives and referenda. It prohibits foreign spending in 
political advertising that promotes, attacks, supports, or 
opposes the election of candidates or, in the case of foreign 
governments, political advertising during an election year 
about national legislative issues of public importance.
    Title III deters foreign interference in elections. For 
example, it restricts campaigns from sharing nonpublic campaign 
material, like internal opposition research and internal 
polling data, with foreign governments and their agents or 
those on the sanctions list, which can include oligarchs.
    It also makes clear that the standard of determining the 
existence of coordination between campaigns and outside 
interests does not require an express agreement. This is in 
keeping with longstanding laws and regulations.
    The remaining provisions of Title III remain reserved.
    Title IV is the severability clause and provides guidance 
about effective dates.
    Does any Member seek recognition?
    Mr. Raskin.
    Mr. Raskin. Thank you very much.
    The Chairperson. For what purpose does the Member seek 
recognition?
    Mr. Raskin. I move to strike the last word.
    I want to rise in support of the SHIELD Act. I am very 
enthusiastic about this legislation, and I want to thank the 
Chair for her leadership in bringing it forward.
    This is the third major piece of legislation that I hope we 
will be able to pass in the House of Representatives to address 
the serious deficiencies and deficits in American electoral 
democracy.
    We passed H.R. 1, which would eliminate gerrymandering in 
America by mandating the use of independent redistricting 
commissions in every State. It would also institute automatic 
voter registration. It has the ``Shareholders United'' 
provisions that would prevent corporations from spending the 
money of the shareholders without their consent. And there are 
a number of other very positive features in H.R. 1. Alas, we 
are still waiting for any movement in the Senate on it.
    We also passed the SAFE Act to guarantee the integrity of 
the machinery of American democracy and to assure that the 
mechanics will certify the authentic public will.
    And now we have the SHIELD Act to try to repel and reject 
foreign interference in our campaigns. I am especially 
delighted that we are doing this because I was on the Committee 
in the last Congress, and for two years we saw no legislation 
that would successfully repel foreign interference in our 
campaigns.
    In fact, I don't think that we seriously addressed the 
issue at all of what took place in 2016, so I think that we 
need to start there. As a member of the Judiciary Committee as 
well as the House Administration Committee and the Oversight 
and Reform Committee, I want to give everybody my best sense of 
what took place in 2016.
    Special Counsel Mueller, in his report, said there was a 
campaign for sweeping and systematic interference in the U.S. 
election by Russia, by the GRU. That campaign included an 
attempt to poison the political culture of the United States of 
America with racist propaganda and various provocations to 
create and exacerbate preexisting racial, ethnic, religious, 
and social conflict in the country.
    There was also direct cyber espionage and sabotage that 
took place with respect to the DNC, the DCCC, Hillary Clinton's 
offices, all of which were hacked into by Russian operators. 
And then, finally, there were direct efforts to hack into the 
computer systems of all 50 State election systems.
    So that is a basic outline of what Vladimir Putin undertook 
to do to distort and thwart and predetermine election outcomes 
in our country. That is intolerable from a democratic 
perspective, and I think it is something that should unify all 
of us as Americans.
    I have colleagues in Congress whose politics I disagree 
with vehemently, but I will defend with my life their right to 
be involved in our politics. That is not true of Russian 
saboteurs and Ukrainian prosecutors and investigators and 
Chinese spies and others who appear to have been invited to 
come into our electoral process. And we need to build very 
strong safeguards in our election laws to prevent this 
interference and tampering with American political democracy.
    The first three words of our Constitution are ``We the 
people.'' This is up to the people of America. We don't even 
allow our own government to get involved in our election, to 
spend money trying to elect this candidate or defeat that 
candidate. That is completely against our laws, to spend 
government money in that way. Why would we allow other people's 
governments to get involved in our elections to try to thwart 
the popular will and to try to bend our government to their 
will?
    The Founders of the United States understood that this 
would be a constant threat because we are a free, open, and 
democratic society. They understood that other governments 
would try to come and use our openness in order to gain sway 
over us. We have to pass fair, open, and transparent laws to 
say America's elections are for the American people.
    I am very proud to support the SHIELD Act. I hope we will 
have a good markup today and we will pass it on to the Floor.
    I yield back.
    The Chairperson. The gentleman yields back.
    Does any other Member wish to be recognized?
    Does the Ranking Member seek to be recognized to offer an 
amendment?
    Mr. Davis of Illinois. I have an amendment at the desk.
    The Chairperson. The Ranking Member is recognized for the 
purpose of offering an amendment and for five minutes.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. The gentlelady reserves a point of order.
    The clerk will report the amendment.
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 4617 Offered by Mr. Davis of Illinois. In 
section 104(1), strike ``legitimate.''
    Mr. Davis of Illinois. Madam Chairperson, I ask unanimous 
consent to waive the reading.
    The Chairperson. Pardon me?
    Mr. Davis of Illinois. I would like to make a motion we 
waive the reading of the amendment, although it is over.
    The Chairperson. It was over. It was so quick that we 
couldn't even get the words out in time.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Davis of Illinois. That is a good amendment. That is 
called governing. Look at that quick reading.
    Am I recognized, Madam Chairperson?
    The Chairperson. You are recognized for five minutes----
    Mr. Davis of Illinois. I thank you.
    The Chairperson [continuing]. In support of your amendment.
    Mr. Davis of Illinois. This amendment----
    The Chairperson. And I assume the gentlelady withdraws her 
point of order.
    Mr. Davis of Illinois. Thank you to the gentlelady from 
California for withdrawing the point of order.
    This amendment simply would strike the term ``legitimate'' 
in Section 104 of this bill. The word ``legitimate'' in this 
section is vague and overbroad, which would eventually lead to 
the courts determining which journalistic activities are 
legitimate and which ones are not.
    It is reckless to have this provision in this bill, 
considering our highly polarized political climate, where each 
side believes they are the ones correctly reporting the news. 
Interpretations of the word ``legitimate'' would undoubtedly be 
politically motivated and, if this legislation passes the House 
without this amendment adopted, would undoubtedly weaken public 
confidence in election security legislation.
    I urge a ``yes'' vote on this very short, simple amendment 
that I think makes tremendous sense.
    And I will reserve.
    The Chairperson. The gentleman can't reserve, the gentleman 
yields back.
    Mr. Davis of Illinois. I yield back.
    The Chairperson. I oppose the amendment, and I will tell 
you why.
    Section 104, the rule of construction, of the SHIELD Act 
duty-to-report provisions is just an expression of 
congressional intent that the duty to report should not be 
construed to otherwise limit the existing rights of foreign 
nationals, as defined by the Federal Election Campaign Act, or 
journalists.
    It closely tracks the rule of construction that is included 
in a Senate duty-to-report bill that has Republican support, by 
the way. It also tracks something that the FEC has long 
required when applying the press exemption, to consider, among 
other things, whether an outlet or journalist is acting in 
their, quote, ``legitimate press function.''
    In keeping with the Federal court case Reader's Digest 
Association v. FEC, it applies a two-part test when analyzing 
the press exemption: first, whether an entity is a press 
entity; and, second, whether that press entity is acting in 
its, quote, ``legitimate press function.''
    Here is how the FEC describes its analysis of legitimacy. 
And this is from an advisory opinion in 2016 that had the 
unanimous vote of the FEC, including all three FEC Republicans.
    And I quote: ``The Commission applies a two-step analysis 
to determine whether this media exemption, also known as the 
press exemption, applies. First, the Commission asks whether 
the entity engaging in the activity is a press entity within 
the meaning of the act and Commission regulations. Second, in 
determining the scope of the exemption, the Commission 
considers, one, whether the press entity is owned or controlled 
by a political party, political committee, or candidate, and, 
two, whether the press entity is acting as a press entity in 
conducting the activity at issue''--in other words, whether the 
press entity is acting in its, quote, ``legitimate press 
function.''
    And they refer to the Reader's Digest Association v. FEC, 
found at 509 F. Supp. 1210 and 1215, as well as the FEC v. 
Phillips Publishing, as well as several advisory opinions. ``In 
applying this analysis''--and I go on to quote them--``the 
Commission considers whether the entity's materials are 
available to the general public, whether they are comparable in 
form to those ordinarily issued by the entity, and''--the point 
I am making is that this rule of construction is what is being 
referred to as a legitimate journalistic activity. There is a 
long body of law defining what it means. We will incorporate 
and assume that that body of law will continue to be in effect 
when we utilize this phrase that has been defined in these 
cases and opinions.
    And, therefore the amendment should be opposed and, I 
think, is ill-advised.
    I yield back the balance of my time.
    Are there further comments on the amendment?
    Mr. Raskin is recognized to strike the last word.
    Mr. Raskin. Yes, I move to strike the last word. Thank you, 
Madam Chairperson.
    Thanks for that explanation. And also thanks for the 
amendment, which I think does raise an interesting problem.
    I wondered if the Chairperson would be willing to give us 
some more concrete hypotheticals to help us understand this 
problem. Because, as stated, at this level of abstraction, I am 
not quite sure I understand.
    What is the general function of having this provision at 
all? As I understand it, if someone comes to my campaign 
representing a foreign government and seeks to engage in 
certain kinds of communications and interactions with me, that 
is a reportable event, even if they represent a state news 
service. Isn't that right?
    The Chairperson. Well, no. See, this would exempt that.
    Let's say Oligarch No. 1 comes to your campaign. You have a 
duty to report. But if it is a legitimate reporter, as defined 
by the legitimate press function and a whole body of law----
    Mr. Raskin. Yes.
    The Chairperson [continuing]. That requirement to report 
would not exist, because it is a press inquiry. It is not a 
foreign interference.
    Mr. Raskin. And thank you for that explication. I guess 
that raises an issue with me, because, you know, I don't know 
what Vladimir Putin is calling Pravda these days, but if he 
sends state news to get involved with someone's campaign, it 
doesn't give me any comfort that that person is acting as a 
journalist for a foreign state actor.
    And so I guess I am looking for a broader defense of why we 
even have----
    The Chairperson. Well----
    Mr. Raskin. Do we feel this is a constitutionally 
necessary----
    The Chairperson. I do. And whether there is further work 
that could be done to prevent what is perceived as a government 
propaganda arm is something we could discuss between here and 
the Floor.
    But there are many organizations that are legitimate news 
organizations, meeting the test in Reader's Digest Association, 
that are clearly not propaganda associations. For example, the 
BBC is funded by the British Government. I don't think anyone 
would say they are a propaganda source. They are a news source.
    We might feel differently about Pravda, but how we make 
that distinction I don't know at this moment. If you have 
additional suggestions between now and the Floor, we could all 
discuss them and----
    Mr. Raskin. Okay. And then let me----
    Mr. Davis of Illinois. Will the gentleman yield?
    Mr. Raskin. Yes, I am happy to yield.
    Mr. Davis of Illinois. Look, I think some of the questions 
you bring up are some of the concerns that we had.
    You know, we mentioned that the FEC has clearly defined 
what they believe legitimate news sources are. I mean, would 
like to be able to work together to--let's define it. Let's not 
make this as broad.
    That is my main concern about bringing this up; this is so 
broad. Who is going to make this judgment? And are we sure that 
they are going to follow the same process and procedures and 
the definition that the FEC follows?
    Mr. Raskin. Okay. And just reclaiming my time here, I would 
be delighted to work with both of you in thinking through the 
problem further.
    Unfortunately, your amendment, which I understand is well-
intentioned, would make it broader. By removing ``legitimate,'' 
it opens the door broader to anybody who claims to be a news 
organization from a state. And so I guess, given the----
    The Chairperson. You are thinking, if I may, if the 
gentleman will yield----
    Mr. Raskin. Yes.
    The Chairperson [continuing]. You actually want to narrow 
the----
    Mr. Raskin. Yes, I would either abolish it or narrow it. 
But, certainly, I want to keep the legitimacy of the news 
entity front and center, because there are lots of people who 
are really acting as political emissaries for various states 
out there who are happy to pose as reporters.
    Mr. Davis of Illinois. Will the gentleman yield?
    Mr. Raskin. I yield.
    Mr. Davis of Illinois. I agree, there are entities. But 
what I think this legislation does, which is why we wanted to 
bring it to the Majority's attention, is that it gives a 
blanket protection to anyone who may be considered by some 
agency in the Federal Government as legitimate when, at some 
time, they may be considered not legitimate in the future. They 
may be that entity.
    So the broadness of where we are right now with this 
definition, it shows why we have some concerns about this bill. 
I would love to work with you. I would like to immediately put 
the--I would work further right now if we could offer an 
amendment to put the FEC's definition of legitimate news 
sources into an amendment now and pass it today.
    Mr. Raskin. Well, reclaiming my time, thank you, and I 
appreciate that.
    And, again, I am very happy to work with both of you on 
brainstorming the best way to deal with the problem. But I 
don't think a good way to deal with it is to abolish the 
legitimacy criterion and thereby allow both legitimate and 
illegitimate news entities to come into the gate.
    So I yield back to you.
    The Chairperson. The gentleman yields back.
    Does any other Member wish to be heard on the amendment?
    If not, then the decision is on the amendment.
    All those who are in favor of the amendment will say aye.
    All those who are opposed will say no.
    In the opinion of the Chair, the noes have it. The noes 
have it and----
    Mr. Davis of Illinois. I need a roll call vote, because I 
didn't ask for a roll call vote for H.R. 1 and now it is being 
viewed as unanimous.
    The Chairperson. Okay.
    The clerk will call the roll.
    The Clerk. Chairperson Lofgren?
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin?
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mrs. Davis of California?
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield?
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge?
    [No response.]
    The Clerk. Mr. Aguilar?
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois?
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, on this vote, five Members 
vote no and one Member is yes.
    The Chairperson. And the amendment is not agreed to.
    Are there additional amendments that Members wish to offer?
    Mr. Davis of Illinois. Yes.
    The Chairperson. The Ranking Member is recognized for the 
purpose of offering an amendment.
    The clerk will report the amendment.
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 4617 Offered by Mr. Davis of Illinois. 
Strike Subtitle B of Title I (and redesignate the previous 
subtitle accordingly). Page 37, line 19, strike ``Section 117 
and.'' Page 37, line 22, strike ``(e)'' and insert ``(d).''
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. Thank you.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. The gentlelady reserves a point of order.
    The gentleman is recognized for five minutes in support of 
his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This amendment strikes Subtitle B of Title I. This section 
would not accomplish its desired goal of eliminating foreign 
meddling in our elections. This section only applies to paid 
ads, but in 2016 most Russian propaganda was posted for free on 
social media platforms.
    It would also apply only to the largest media platforms, 
such as Twitter, Facebook, and The New York Times, but ignores 
thousands of other platforms, viewed by hundreds of millions of 
Americans, open to foreign propaganda.
    It also requires web platforms to play the role of law 
enforcement officials. But if they fail to detect foreigners 
disguised with American identities, they will be punished as 
criminals.
    Our foreign adversaries will not be deterred by compliance 
with FEC filings. Do you think they care if they get hit with a 
civil penalty from an administrative board? The only people 
that will truly be penalized by this will be Americans who want 
to engage in public discourse.
    This is a good amendment that provides a fix to this bill 
that I believe right now, in its current form, is unfixable. 
And I urge--therefore, I doubt I get my wish that the Majority 
would pass this amendment. I would like to see something come 
through in any of these election security bills that have been 
marked up in this Committee. I would like to see at least 
someone work with us on a bipartisan amendment. I am still 
waiting, and I hope it might be this one.
    I yield back.
    The Chairperson. The gentleman yields back.
    The gentlelady withdraws her point of order.
    And the Chair recognizes herself to explain why I oppose 
the amendment.
    Essentially, the amendment would repeal the provisions of 
the SHIELD Act that basically reflect the Honest Ads Act. It is 
important that digital advertising be included in our efforts 
to reform in this space. Digital advertising can have far 
greater reach than broadcast advertising. They are relatively 
inexpensive to produce, can be disseminated instantly to huge 
audiences across vast distances.
    And I will note, the Ranking Member complains about lack of 
bipartisanship. The Honest Ads Act incorporated in Title I of 
the SHIELD Act actually has 18 Republican cosponsors and 17 
Democratic cosponsors. So that is a bipartisan approach.
    Earlier this year, the Senate Select Committee on 
Intelligence, as I mentioned in my opening statement, released 
a report about Russian information warfare and specifically 
recommended, on page 80 of Volume II, that Congress should 
examine legislative approaches to ensuring Americans know the 
sources of online political advertisements.
    I think it is time for our disclosure and disclaimer laws 
and regulations to be updated to reflect how campaigns are run 
in the 21st century. The Honest Ads Act takes steps to curb 
illegal foreign influence in our elections by requiring that 
media platforms make reasonable efforts to ensure that 
political advertisements are not purchased by foreign 
nationals.
    Now, we know that during the 2016 Presidential elections 
Russian operatives took advantage of the absence of disclosure 
rules for online political ads. Facebook has disclosed that 
Russian entities spend $100,000 in political advertisements to 
amplify divisive social and political messages. And it is 
important to note that these ads were seen by a huge number of 
people.
    Now, it is true that paid political advertisements are not 
the sole method by which foreign adversaries wage 
disinformation. But they are a key tactic to grow followers and 
gain exposure to millions of people.
    According to page 44 of the bipartisan Senate report, 11.4 
million people in the United States saw at least 1 of the 3,393 
advertisements that were purchased by the IRA, the Russian 
influence agency. Moreover, they were targeted down to the 
State, city, and, in some instances, university level.
    I will just note that when Citizens United was decided by 
the Supreme Court--a decision, to be honest, I disagreed with--
one of the things that the Court said in making its ruling was, 
the answer to whatever harm would be done by money in the 
political arena would be disclosure. Justice Kennedy wrote that 
the First Amendment protects political speech, and disclosure 
permits citizens and shareholders to react to entities in a 
proper way.
    We need to have complete disclosure so that people know 
what they are getting. And we need to make sure that we 
prohibit these foreign, really, enemies of the United States 
from trying to disrupt our democracy.
    So, with that, I see my time is almost up, and I yield 
back.
    Are there additional Members wishing to be heard?
    If not, then the question is on the amendment.
    All those in favor will say aye.
    All opposed will say no.
    In the opinion of the Chair--the noes have it.
    Mr. Davis of Illinois. I clearly won that voice vote. I 
would like a roll call vote.
    The Chairperson. The Ranking Member asks for a roll call 
vote.
    The clerk will call the roll.
    The Clerk. Chairperson Lofgren?
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin?
    [No response.]
    The Clerk. Mrs. Davis of California?
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield?
    [No response.]
    The Clerk. Ms. Fudge?
    [No response.]
    The Clerk. Mr. Aguilar?
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois?
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, on this vote, there are three 
Members voting no and one Member voting yes.
    The Chairperson. And the amendment is not agreed to.
    Are there additional amendments that Members wish to offer?
    Mr. Davis of Illinois. Yes. I have an amendment at the 
desk.
    The Chairperson. The Ranking Member is recognized to offer 
his amendment.
    The gentlelady from California reserves a point of order.
    The clerk will report the amendment.
    The Clerk. The Amendment to the Amendment in the Nature of 
a Substitute to H.R. 4617 Offered by Mr. Davis of Illinois. 
Strike Section 115 (and redesignate the succeeding sections 
accordingly).
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    The gentlelady from California withdraws her point of 
order.
    Mr. Davis of Illinois. Madam Chairperson, I want to comment 
on your comments. I don't have the ability to get any of my 
colleagues to yield me time when they are not here. You are 
welcome, to the rest of the Committee, for not having me have 
extra time, but that means I get to take some time now.
    We are not against additional disclaimer and disclosure 
laws. We want to work with you all on this. But in its current 
form, this bill would regulate all political advertisement, of 
all Americans, for $100,000 in Russian ads out of $1.4 billion 
in online political ads purchased in the 2016 Presidential 
election.
    Remember, the majority of the propaganda came on free 
portions of the platforms. We haven't even had a hearing in 
this Committee with the companies who are in charge of these 
platforms to ask them why. Why did they take a check from a 
foreign country and put those ads up? What are they doing to 
ensure that countries like Russia can't use free platforms to 
disseminate bad information? Why don't we get a chance to have 
them at that table right there and ask them that?
    This bill has been rushed. That is the problem. That is the 
problem. We can throw $100,000 in Facebook ads in a 
Presidential election. My Lord, if you divided that by 435 and 
you put it in my race, you mean I only have to spend 1/435th of 
$100,000 and I am going to influence enough voters to make sure 
I come back here? That is what is going to make me win in my 
race? Seriously, come on. That is why this bill is bad.
    Madam Chairperson, you mentioned the Senate report that 
said we should examine legislation on online ads. Exactly. Why 
haven't we had a hearing about that? Why are we pushing another 
one of these partisan bills through this Committee, this 
Committee that has become one of the most legislating 
legislative committees of Congress? I am okay with that. I like 
debating these issues. But let's get real here.
    This amendment would correct a problem in this bill that 
applies television disclaimer rules to online advertising. I 
don't know about you, but, look, I have a race where I have to 
run television ads and I have to run online ads. There is a big 
freaking difference between an online advertisement and a TV 
advertisement.
    We are going to go backwards. We are not looking at the 
21st century. We are not looking at new platforms. We don't 
even know what the next generation of platforms is going to be, 
because we haven't seen anybody here from any of these 
platforms that are named in this bill.
    That, to me, is not what I came to Congress for. I can talk 
bipartisanship all I want. How about information? Missed that. 
Don't get a chance.
    Instead, we are going to go put some--we here in Congress 
and on this Committee are now going to implement rules that 
online platforms are going to have to follow without giving a 
chance for them to tell us what they already do.
    Also, every time we debate an election security bill in 
this Committee, every single time, we forget to talk about what 
we have done right. We forget to talk about the 2018 election. 
Historic midterm turnout. Trust me, I know. A lot longer night 
than I am used to. Historic midterm turnout.
    What we don't talk about is where we have worked together 
in the last Congress in a bipartisan fashion, mind you, to 
provide millions of dollars to our States to work in 
conjunction with the Department of Homeland Security, who 
deserves a lot of kudos at a time where our Department of 
Homeland Security is attacked on a daily basis. They deserve a 
lot of credit for what they are doing, working with our local 
election officials to make sure no foreign country interferes 
in our elections. And you know what? You know what? It is 
working. Not one instance that I have seen reported of foreign 
interference in our 2018 election cycle. Not one.
    And you would think, if the Russians had been so successful 
in determining an outcome in an election, that they certainly 
would want to influence Congress too, right? But we see 
nothing. Wow.
    But let's go ahead and fix it. Let's go ahead and put 
antiquated rules for disclosure into law, because government 
knows best, without even asking these new platforms how they 
are going to implement them, without even pulling them in front 
of our Committee.
    If we are going to legislate on a Committee like this, like 
we are being asked to, then let's damn well have some hearings 
so we can hear why it is important, we can hear from them what 
is going to work and what is not. That is what makes me mad.
    And I don't have anybody here to yield me more time, and I 
am okay with that, but I am not going to sit here and look at 
this legislation and think that it is okay without standing up 
and putting up a fight. I know I am going to be alone on every 
one of these amendments. I know I am going to get drowned out 
by a unanimous vote except for me. And you know what? That is 
okay, because I am going to go to the Floor and say the same 
damn things.
    I yield back.
    The Chairperson. The gentleman yields back.
    The gentlelady withdraws her point of order. I recognize 
myself in opposition to the amendment.
    First, I just would like to note that we did have a hearing 
on February 14. We heard from eight witnesses at our hearing, 
``For the People: Our American Democracy.'' And--excuse me?
    Mr. Davis of Illinois. Will the gentlelady yield?
    The Chairperson. No. I am in the middle of explaining why I 
oppose this amendment.
    We did have the Honest Ads Act discussed at that hearing.
    This amendment would eliminate the Honest Ads Act 
improvements on disclaimer and disclosure rules that apply to 
paid digital advertising on major online platforms. It seems to 
me that Americans should have the right to know who is spending 
money to influence their views, including on online digital 
ads.
    Transparency is key, as we have noted earlier and as the 
Supreme Court noted in the Citizens United case. The Honest Ads 
Act ensures that the same rules that apply to television and 
radio also would apply to digital advertisements but with 
regulatory flexibility to address ongoing changes in 
technology.
    For example, the bill, starting on page 16, requires 
advertisements to include in a clear and conspicuous manner who 
paid for the ad, but it provides for a special rule, on page 
17, for qualified internet or digital communications in which a 
full paid-for-by disclaimer is not possible due to 
technological limitations.
    And that special rule would provide that an ad, at a 
minimum, include the name of the person who paid for the 
communication and then provide a means for the recipient of the 
communication to obtain the remainder of the information, 
required under the section, with minimal effort and without 
receiving or viewing additional materials. In other words, a 
rollover or pop-up or landing page could supply the remainder 
of the ``Stand By Your Ad'' rules.
    The three-second audio and four-second video requirement 
provides a safe harbor, as defined on page 18 of the bill, and 
it provides that the disclaimer information be presented in a 
clear and conspicuous manner.
    I would like to note that, although much has been said 
about bipartisanship, this Honest Ads bill has bipartisan 
support.
    On the House side, Representative Elise Stefanik of New 
York said this: ``The Honest Ads Act will prevent foreign 
actors from influencing our elections by ensuring that online 
political advertising follows the same rules as television 
advertising and discloses the purchaser. There is no doubt that 
Russia has tried to interfere in our electoral process, and I 
am proud to cosponsor this bipartisan effort to ensure they or 
other foreign entities are not successful.''
    Senator Lindsey Graham, not known to be a liberal, made a 
similar statement of support of the Senate version of the 
Honest Ads Act.
    So, while the Ranking Member may not agree, as is his 
right, to suggest that this does not have bipartisan support, I 
think, is incorrect.
    I think the amendment, which would simply remove this, 
would be a mistake and would make this piece of legislation a 
far poorer piece of legislation, and I would ask that the 
Members vote against it.
    And I yield back the balance of my time.
    Do other Members wish to be heard?
    The gentlelady from California----
    Mrs. Davis of California. Thank you.
    The Chairperson [continuing]. Is recognized for five 
minutes to strike the last word.
    Mrs. Davis of California. Yes. Madam Chairperson, just very 
briefly, I think, in many ways, what we are asking in this is 
that there are enough obstacles in the way to suggest, on some 
levels, that we are watching all these other entities at the 
same time.
    I think that is important, because what we are trying to do 
is, at the same time, sort of build resiliency in the 
population so people begin to ask those questions: Who is 
supporting this? How are they doing it? Where is the money 
coming from? Et cetera. And by removing all of that information 
we open up the gates and say ``come on in.''
    I think we just have to put a few gates in the way to make 
it a far more difficult process for at least a certain amount 
of information that is meant to influence, on some levels--and, 
again, this is coming from foreign entities. And, you know, we 
don't want to get out of their way. We actually want to get in 
their way, in this instance.
    The Chairperson. Does the gentlelady yield back?
    Mrs. Davis of California. I yield back.
    The Chairperson. Are there other Members wishing to be 
heard on this amendment?
    If not, then the question is on the amendment.
    All those in favor will say aye.
    All those opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. Can I have a roll call vote?
    The Chairperson. The Ranking Member asked for a roll call 
vote.
    The clerk will please call the roll.
    The Clerk. Chairperson Lofgren?
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin?
    [No response.]
    The Clerk. Mrs. Davis of California?
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield?
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge?
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar?
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    The Clerk. Mr. Davis of Illinois?
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Clerk. Madam Chairperson, on this vote, there are five 
noes and one yes.
    The Chairperson. And the amendment is not agreed to.
    Does the Ranking Member have an additional amendment?
    Mr. Davis of Illinois. I do. I have an amendment at the 
desk, No. 4.
    The Chairperson. The gentleman is recognized to offer his 
amendment.
    The gentlelady from California reserves a point of order.
    The clerk will please report the amendment.
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 4617 Offered by Mr. Davis of Illinois. 
Strike Section 116 (relating to political record requirements 
for online platforms).
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    And, look, I enjoy working with every Member on this 
Committee. We have our differences of opinion when it comes to 
these election security issues. I want to vent my frustration 
once more on this Honest Ads Act portion.
    Look, if the Honest Ads Act is what everybody wants, why 
aren't we just pushing that bill? Why are we following the same 
path that we have seen in other committees, where you take 
bipartisan legislation that could get marked up in a bipartisan 
way, we could make some fixes that even some of the cosponsors 
have come to talk to me about, we could make some fixes, and 
then we could pass it, and then we could all stand together. We 
could be like, yeah, we did it, we did something. Send it over 
to the Senate in a bipartisan fashion, and then the bogeyman, 
Senator Mitch McConnell, can't be blamed for stopping it, 
because we are going to push it over in a bipartisan fashion.
    But, instead, instead, you take a portion that has some 
very good things in it and you mold it together, like I said in 
my opening statements, with some poison pills. Then you call it 
the SHIELD Act instead. Well, that is great. Great. But there 
is a chance for bipartisanship and unfortunately we are not 
getting it.
    Which is why, as I said in my opening statement, I am 
throwing these amendments up, to send a message that maybe we 
should fix it, maybe we should do a little more, maybe we 
shouldn't rush this stuff. Because this is going to have a 
chilling effect on how all of us and how anybody who wants to 
participate in the political process actually is able to in the 
future.
    So much so that, when you look at this provision--another 
reason why we have offered this amendment is that I have three 
former FEC chairs that wrote an article addressing what, Madam 
Chairperson, you said earlier. And it says: But the bill, the 
Honest Ads Act, which goes far beyond the Senate report's 
recommendation, wouldn't prevent foreign meddling, and it would 
harm First Amendment rights.
    All I am doing is striking Section 116 because the bill, as 
written, would capture far more ads than what we have seen in 
the past and what I think the intention of the Majority is. 
Many issue-based groups say this would have a chilling effect 
on First Amendment rights.
    Now, you talk about having a political notation and 
categorization. Well, I would like to submit this for the 
record. I have some examples of----
    The Chairperson. Without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Davis of Illinois. Yeah, thank you. I have some 
examples of Facebook ads where they have been categorized 
``issue,'' ``electoral,'' or ``political.''
    Here is my favorite. I am a proud father of two small 
Yorkies. They run my house. I don't know how political they 
are, but the hotdogcollars.com-sponsored ad on Facebook was 
labeled ``electoral'' or ``political.'' I mean, it is so 
political that you can shop thousands of styles of dog collars, 
cat collars, leashes, ID tags, and more. Get free shipping on 
orders over 30 bucks.
    More than willing, Pete, if you want to buy me some dog 
collars, you get free shipping. All right. Thank you.
    So that is a problem. That is why we ought to have Twitter 
and Facebook here, so we can hear from them what they are 
already doing, what is working, and what is not.
    Recently, Federal courts have doubted the constitutionality 
of provisions such as this. A U.S. district court has 
preliminarily enjoined Maryland's implementation of the 
Maryland Online Electioneering Transparency and Actability Act, 
which in many ways was less burdensome than the Honest Ads Act 
section contained in this bill. The court held, ``All compelled 
disclosure laws implicate the Free Speech Clause, but laws 
imposing those burdens on the media implicate a separate First 
Amendment right as well, the freedom of the press.''
    Lastly, Madam Chairperson, you mentioned a hearing that we 
had in preparation for H.R. 1, the one, with two panels. We had 
Secretaries of State here talking about election security 
issues. We had the Brennan Center talking about how they helped 
you guys write that 600-page bill. We had others come in 
talking about how they helped the Majority write the bill too.
    Yes, we had a hearing. But, no, we had nobody sitting at a 
table in a subsequent hearing from companies and platforms that 
we and everyone who participates in the political process will 
use in every subsequent election. We didn't have any of them 
come here to tell us how best to fix the problem and answer the 
questions as to why they took money from foreign countries for 
ads.
    I didn't get a chance to ask that. None of you got a chance 
to ask that. I think that is wrong. I think we could have had a 
very informational hearing with the companies that are going to 
be most affected by this very rushed legislation.
    I yield back.
    The Chairperson. The gentleman yields back.
    The gentlelady withdraws her point of order. The Chair 
recognizes herself for an explanation of why I would ask that 
the amendment be opposed.
    I did see the op-ed by the three former Republican members 
of the FEC opposing the Honest Ads Act, a bill that has been 
sponsored by Representative Kilmer, which currently has more 
Republican cosponsors than Democratic cosponsors.
    I note that two other FEC members, former Chair Ann Ravel, 
has endorsed the Honest Ads Act, as well as the current FEC 
Chair, Ellen Weintraub. So that appears to be split.
    The amendment would remove the recordkeeping requirements 
in the bill. Now, critics have said that it is, you know, 
somehow unfair for online platforms to maintain and make 
available for public inspection a record of campaign 
advertising. To be clear, the recordkeeping requirements are 
very similar to those that apply to broadcasters that maintain 
political files. Here, the platforms would be required to 
maintain a digital copy of the ad, a description of the 
audience targeted, and information about the rate charts, the 
candidate it supports, or the national legislative issue to 
which it refers.
    Moreover, the Honest Ads Act puts these transparency 
obligations on the largest platforms, those that sell ads and 
have 50 million or more monthly U.S. visitors.
    Now, platforms like Facebook and Google, in particular, 
have taken some voluntary steps, partly, to keep these 
recordkeeping requirements, although their work has not been 
perfect. But we in Congress need to do our job. These have to 
be requirements, not voluntary agreements that can be changed 
at any time.
    I would note also, I had not seen the dog collar ad 
mentioned and now put into our official record, but it is an 
example of why the ``national legislative issues of public 
importance'' provisions in the Honest Ads Act needs to be made 
law.
    The term ``national legislative issue of public 
importance,'' which is what triggers the qualified political 
advertisement for purpose of a platform's recording 
requirements, is borrowed from Section 315(e)(1)(B) of the 
Communications Act. This is not just made up here on the spot. 
It requires broadcasters to maintain and make available for 
public inspection a complete record of requests to purchase 
broadcast time going to a national legislative issue of public 
importance. We need to have an administrative standard, as we 
do in the context of broadcasters, and it is important we set 
that standard so it can be met.
    Finally, just a note on whether or not this will chill 
speech. I think it is important that, even though, as I 
mentioned earlier, I disagreed with the court in their Citizens 
United decision, seven Justices joined Justice Kennedy in 
saying, quote, ``The First Amendment protects political speech; 
and disclosure permits citizens and shareholders to react to 
the speech of corporate entities in a proper way. This 
transparency enables the electorate to make informed decisions 
and give proper weight to different speakers and messages.''
    Disclosure does not silence or censor any speech. The Court 
affirmed in Citizens United, by an eight-to-one margin, that 
disclaimer and disclosure requirements impose no ceiling on 
campaign-related activities and do not prevent anyone from 
speaking.
    So I think this amendment is ill-advised. I would urge that 
it be defeated. And I yield back the balance of my time.
    Do additional Members wish to be recognized?
    Seeing no one, then the question is on the amendment.
    All those who are in favor of the amendment will signify by 
saying aye.
    All opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I request a roll call vote, please.
    The Chairperson. The Ranking Member has asked for a roll 
call.
    The roll call will be called by the clerk.
    The Clerk. Chairperson Lofgren?
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin?
    [No response.]
    The Clerk. Mrs. Davis of California?
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield?
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge?
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar?
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois?
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Clerk. Madam Chairperson, on this vote, there are five 
noes and one yes.
    The Chairperson. And the amendment is not agreed to.
    Are there additional amendments?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk, No. 5.
    The Chairperson. The clerk will report the amendment.
    The gentlelady from California reserves a point of order.
    Mr. Davis of Illinois. I will waive the reading of the 
bill. I would like to----
    The Clerk. Amendment to the Amendment in the Nature of a 
Substitute to H.R. 4617 Offered by Mr. Davis of Illinois. In 
Section 319(d)----
    The Chairperson. Without objection, the amendment is 
considered as read.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Davis of Illinois. Madam Chairperson, thank you.
    This amendment would simply include ``labor organizations'' 
after each occurrence of ``corporation.'' Unions have been 
treated in parity with corporations throughout the history of 
the Federal Election Campaign Act, and there is no reason to 
deviate from that here regarding certification of compliance.
    There is, however, no reason for either to actually be 
targeted in this bill. Neither corporations nor unions have 
been accused of any election interference in any election. I 
mean, frankly, I don't think either one should be in this bill. 
But since you put one in, we have to kind of put the other in.
    I am kind of waiting--it is interesting because, right now, 
under the Federal Election Campaign Act, nobody running for 
Federal office can take corporate dollars. Nobody. The only way 
that is going to happen is if H.R. 1 is ever signed into law.
    The Chairperson. Would the gentleman yield? Because I think 
we are prepared to accept your amendment.
    Mr. Davis of Illinois. Oh. Yes.
    The Chairperson. I think it is covered anyhow pursuant to 
the FEC, but I have no objection to including labor 
organizations along with the other delineated entities in both 
sections of the bill. And I am prepared to accept the 
amendment, and I think other members are as well, if we can 
proceed.
    Mr. Davis of Illinois. Well, I will reclaim my time. Thank 
you for the cooperation.
    And, in this case, look, I am a pro-labor Republican. I am 
somebody who is proud to be endorsed in my campaigns by many 
labor organizations.
    These are opportunities for us to be able to work together 
for commonsense solutions. The sheer fact that we are targeting 
labor or corporations in this bad bill is something that I 
think the entire Committee needs to be concerned about. And 
when we move forward and we can talk about bipartisanship, I 
hope it is in the sense that we have truth when it comes to 
advertising in the future.
    Now, I am sitting here, and I can tell you, as somebody who 
had millions of dollars spent against him in online ads, TV 
ads, radio ads, where they said I took corporate money, I mean, 
I can't wait, if this bill is put into law, for the Attorney 
General and the DOJ to spend millions of your tax dollars 
actually setting the record straight on my behalf when we 
finally find out that none of us can take corporate money. That 
is what this bill does. We are going to address that later. It 
is going to be pretty fun.
    But this is an opportunity for us to be able--I would 
rather this amendment strike ``labor'' and ``corporate,'' but 
if you are going to put one in, you are going to have to put 
the other. And I don't think my friends in organized labor 
would have any problems coming up with the same certifications 
that everybody else is.
    And, frankly, when we look ahead, I think it is incumbent 
upon them and anyone who wants to participate in the political 
process to do it. But let's not kid ourselves; this is another 
example--and I am glad you guys are offering bipartisanship. 
You kind of take one of my arguments away when we get to the 
floor, but I will make an adjustment. But, in the end, if you 
guys want to target corporations that can't give to us anyway, 
instead of stripping this language out, if you want to add 
``labor'' to it, on a bad bill--hey, I am trying to prove a 
point, how bad your bill is. If you want to make it worse, 
let's go.
    I yield back.
    The Chairperson. The gentlelady withdraws her point of 
order. The question is on the amendment.
    All those in favor will say aye.
    Opposed will say no.
    In the opinion of the Chair, the ayes have it.
    Does the gentleman wish a recorded vote?
    Then the record will reflect that all Members have voted 
aye.
    Are there additional amendments to be offered?
    Mr. Davis of Illinois. Yes. Amendment No. 6. I have an 
amendment at the desk.
    The Chairperson. The clerk will report, and the gentlelady 
reserves a point of order.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 4617, offered by Mr. Davis of Illinois. 
Insert after Title III the following and conform the 
succeeding----
    The Chairperson. The bill will be considered--the amendment 
will be considered as read.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. The gentleman is recognized for five 
minutes in support of this amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This is one that I think we have heard before in this 
Committee. This amendment would simply prohibit ballot 
harvesting. We want to talk about making sure that we know that 
our election processes are fair. We have got to be concerned 
about the chain of custody when it comes to every ballot, and 
we are going to have now, if this bill passes, labor 
organizations certify when they participate in the political 
process to make sure they have no foreign nationals 
participating in the political process. We are going to have 
corporations that can't give to us under current law unless 
H.R. 1 passes, that are going to have to certify that they 
don't have foreign nationals participating in our election 
process?
    How about we get to the ballot level? North Carolina just 
had a special election where a Republican operative is going to 
likely go to jail because of chain of custody questions in a 
ballot harvesting process that is illegal in North Carolina but 
legal in other States in our Nation. If we are going to have 
labor organizations now certify that they have no foreign 
interference in the election process, we ought to make sure 
that we outlaw processes ripe for political operatives to take 
advantage of. And if we have nefarious adversaries like Russia 
that have interfered in the 2016 election, we did a great job 
making sure they didn't interfere in the 2018 election, they 
are criminal. They want to continue to spew their propaganda 
here in our country. They want to interfere in our elections. 
Don't you think they are going to figure out how to use this 
ballot harvesting process that takes away any identity of chain 
of custody of where that ballot comes from and where it gets to 
and what happens in between? We are just going to trust people 
to do that? That is why that process is just ripe for criminal 
activity. And if it is criminal activity in North Carolina that 
required us to have a special election, where millions upon 
millions of dollars were spent again, we Republicans recognize 
that it was a problem, and we are glad that the State decided 
to not certify the first winner. And we are glad they had a 
special election, which the other side started with a 
tremendous advantage. It didn't work out for them, but you know 
what? We said right is wrong, and wrong is wrong. What was 
wrong in North Carolina can't be right in the other States.
    If you want to address the entire security of our 
elections, you can't just start on online advertising, and it 
can't just start with election machines. It has got to end 
before that ballot gets to the ballot box to be counted. And 
until we address this ballot harvesting issue, we will not be 
sure that the entire election process is secure. States have 
decided to outlaw ballot harvesting, States like Arizona. If we 
are going to do a Federal approach, let's do it together. I 
think we ought to. We need much more security when it comes to 
the chain of custody of our ballots because we saw the activity 
that is criminal in North Carolina, and we stood together and 
said it is wrong. Let's stand together again now. I am going to 
keep offering this ballot harvesting stuff every single time we 
have an election security bill because it is a loophole that 
will continue to exist no matter what happens with any of these 
bills that are passed through here.
    Until that loophole is closed, I don't know how Americans 
can ever be sure that we stop all foreign interference in the 
elections. It is that important, ladies and gentlemen. There 
are other areas we can work together to make sure that we 
preserve that chain of custody. Maybe we can put bar codes, 
have certifications from anybody who is ballot harvester. Why 
wouldn't we make sure that no foreign agent decides to be a 
ballot harvester in any State in our Nation? This is a good 
amendment. Let's work to make sure that it passes.
    I yield back.
    The Chairperson. I don't know if the gentlelady intends to 
insist on a point of order. I would note that this amendment is 
out outside of the scope of the bill, which does not deal with 
HAVA, but perhaps rather than getting down a rabbit hole on 
germaneness, I will just address the issue, and we will have a 
vote on the amendment if the gentlelady will withdraw her point 
of order as a courtesy, not because it is germane. The 
gentlelady withdraws her point of order.
    I would urge that the amendment be defeated. Some States 
have laws that make voting accessible for homebound voters and 
others who have trouble physically getting to the polls. For 
instance, California's Elections Code 3017 provides that a 
vote-by-mail voter who is unable to return the ballot may 
designate any person to return the ballot to the elections 
official who issued the ballot, to the precinct board at a 
polling place or a vote center within the State, or to a vote-
by-mail drop off location within the State. Now, allowing 
absentee voters to designate someone to drop off their marked 
ballot allows for greater participation in elections. Some 
people are homebound. They may not have family to delegate this 
role to. They should still have the right to vote, make their 
voice heard in our elections. They should not be 
disenfranchised for that reason.
    Any method of illegal or fraudulent voting is by definition 
against the law, and it carries strict penalties.
    You know, I am from California, and there were no credible 
reports of this ballot return practice resulting in any 
fraudulent or otherwise illegally cast ballots. And I will tell 
you: We had voter monitors from both parties at all the 
elections, and nobody filed a complaint because there was no 
fraud. By contrast, unfortunately, in North Carolina, which, 
frankly, has a much stricter absentee ballot drop-off law than 
California, they did come under scrutiny because there was 
fraud. There was a GOP operative who engaged in fraud, and I 
believe he is being prosecuted. In North Carolina, only a 
family member or a legal guardian can drop off a mail ballot. 
But the deception engaged in in North Carolina last year is the 
problem, not the drop-off law itself, because the drop-off law 
didn't prevent fraud. Fraud is fraud. So the strictness of the 
law really proved inconsequential to prevent election fraud.
    The SHIELD Act actually doesn't have anything to do with 
this provision of the amendment, which is why it probably isn't 
germane. It closes instead the gap in the law that foreign 
governments and others could exploit to manipulate our 
democracy. But the idea that voter fraud is somehow related to 
voter turnout, the real fact is we need to have robust turnout 
among American citizens to have a robust democracy. The ability 
of people who are mobility-impaired to have their votes carried 
by a friend or neighbor or anyone they designate is a good 
thing for voter turnout. It has nothing to do with fraud. As I 
mentioned, the stricter methods in North Carolina certainly did 
not result in fraud from occurring there. So, with that, I 
would yield back the balance of my time to other members who 
wish to be heard on this amendment.
    The gentleman from North Carolina is recognized to strike 
the last word.
    Mr. Butterfield. I move to strike the last word.
    Madam Chairperson, because of the experience that we had in 
North Carolina, I have grave concerns about ballot harvesting. 
We have not had that experience before in North Carolina. It 
has not been a widespread problem throughout the country, but 
what we saw in the Ninth Congressional District in North 
Carolina was unacceptable. But I am going to deem that to be an 
aberration and just not something that we will see repeatedly. 
There may come a time when I will vote for an amendment like 
this, but right now, I think the evidence is not there that 
will support it. Therefore, I will be voting against the 
amendment. Thank you.
    The Chairperson. Thank you. Any other Members wishing to be 
heard? If not, the question is on the amendment.
    All those in favor will say aye.
    All those opposed will say no.
    In the opinion of the Chair, the noes have it.
    The gentleman asks for a recorded vote.
    The clerk will call the roll.
    The Clerk. Chairperson Lofgren?
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin?
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mrs. Davis of California?
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield?
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge?
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar?
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois?
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, on this vote, there are six 
noes and one yes.
    The Chairperson. The amendment is not agreed to.
    Are there further amendments?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk. As we only have three more, I would urge 
to waive the reading, if possible.
    The Chairperson. The clerk will report the amendment. The 
gentlelady reserves a point of order, and the reading of the 
amendment is dispensed with.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Davis of Illinois. Madam Chairperson, am I recognized?
    The Chairperson. Yes, you are for five minutes in support 
of your amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    During the passage of H.R. 1 through this Committee, 
Chairperson Lofgren indicated that any provision of the bill 
that would be reserved would have an opportunity to be marked 
up in the respective committees that have jurisdiction over the 
reserved sections. Unfortunately, not only were large portions 
of H.R. 1 passed without a markup, but Chairperson Lofgren has 
not afforded a similar opportunity for the SHIELD Act, leaving 
the reserved a very important section, even though it has been 
indicated that bills marked up by the Committee would follow 
regular order. This section is a massive Federal overreach and 
is another example of not providing the Judiciary Committee 
with an opportunity to mark it up adequately. Section 313 also 
is poorly drafted, and it places an impossible onus on the 
Attorney General and the Department of Justice as what I 
mentioned earlier.
    So, when I am accused by my opponent of taking corporate 
dollars which I can't do by law, when I am accused of doing 
that by law, if this bill passes, I would have the right to go 
to the DOJ to get them to spend your tax dollars to defend me, 
to say that that is not true. I just think this places an 
onerous burden on the Department of Justice. And are they going 
to put a political litmus test in place, depending on who is in 
power? Listen. I am a proud Republican, but I don't want any 
party at the Department of Justice having that power to 
determine how they are going to spend your tax dollars to 
defend something that is said about a Congressional candidate. 
It just--it scares me, and it is an overreach.
    You know, I said it is poorly drafted. It places an 
impossible burden on the Attorney General and the Department of 
Justice under any administration. This bill states that the 
Attorney General shall communicate to the public by any means 
necessary the supposed materially false information he or she 
believes the State authorities have failed to monitor and 
sufficiently communicate. Okay. Any means? Are they going to 
spend a million bucks on TV in my district, in somebody else's? 
I would think long and hard about this provision in this bill. 
Are they going to do it by lifeguard signals, maybe? They won't 
spend as much money on others. Maybe some Morse code? What 
defines adequate steps? This phrase is too vague and would 
allow the AG to take whatever steps he or she deemed necessary. 
Imagine if a Republican Attorney General, such as the current 
Attorney General, Mr. Barr, imagine if he would have the power 
to intervene in the elections of Democrats. Under this section, 
under this section, he would have the power to do that.
    I also want to submit for the record a letter from the 
Ranking Member of the Judiciary Committee, Doug Collins, that 
asked for a hearing in the Judiciary Committee about these 
provisions in the SHIELD Act of Chairman Nadler, so I would 
like to submit that for the record along with----
    The Chairperson. Without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Davis of Illinois. Thank you. Along with, again, the 
Facebook ads.
    The Chairperson. That has already been included as well.
    Mr. Davis of Illinois. Since Mr. Aguilar won't buy my dogs 
collars, there is another one here that is deemed political. It 
is for the pizza crave. It is a $10 pizza special.
    The Chairperson. I think the entire page has been included 
in the record.
    Mr. Davis of Illinois. Thank you. I wanted to highlight 
that, though. I still have some time left.
    I will go ahead and yield back.
    The Chairperson. The gentleman yields back.
    Does the gentlelady insist on a point of order?
    Mrs. Davis of California. Yes. Madam Chairperson, I 
continue to make a point of order that the amendment violates 
Rule X of the Rules of the House as being outside the 
Committee's jurisdiction. The language of Subtitle B of Title 3 
of H.R. 4617 as introduced, was removed from the measure being 
marked up today as being within the jurisdiction of the 
Judiciary Committee.
    Mr. Davis of Illinois. Madam Chairperson, I will withdraw 
this amendment, but I think it is something that the Majority 
and every Member needs to think about before we rush this 
through without a hearing. You said during H.R. 1, we would 
have regular order. This is not going to happen unless they get 
a hearing at least in Judiciary on the parts that are reserved 
for them, and I yield back.
    The Chairperson. Without objection the gentleman withdraws 
his amendment.
    Are there additional amendments that the gentleman wishes 
to offer?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk, No. 8.
    The Chairperson. The clerk will report the amendment, and, 
by unanimous consent, the amendment will be considered as read.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    The Chairperson. And the gentlelady reserves a point of 
order.
    Mr. Davis of Illinois. Madam Chairperson, thank you.
    This amendment will prohibit political committees from 
directly or indirectly making disbursements to foreign 
nationals. Political campaigns should not be enlisting the aid 
of foreign nationals, either directly or indirectly, such as 
the Hillary for America campaign did in 2016 by hiring Fusion 
GPS through its law firm, Perkins Coie. The campaign then 
reported this covert transaction by filing an FEC statement 
looping in this activity with legal services provided by 
Perkins Coie. This amendment would ensure that this loophole 
would be closed. Political disbursements to foreign nationals 
only serve to weaken confidence in the impartiality of our 
elections. Banning disbursements to foreign nationals would 
limit the access that nefarious foreign actors would have to 
our country's political campaigns. I would urge a ``yes'' vote 
on this amendment, and I yield back.
    The Chairperson. The gentleman yields back.
    I recognize myself to urge opposition to this amendment. 
Does the gentlelady withdraw her point of order.
    Mrs. Davis of California. Yes.
    The Chairperson. I think there has been persistent effort 
on the other side of the aisle to try and use the Steele 
dossier, the so-called Steele dossier, as a smokescreen to 
obfuscate and to avoid doing things about interference from 
foreign adversaries in our elections, and I think it is really 
a classic example of false equivalencies. A campaign that hires 
an American opposition research firm, such as Fusion GPS, and 
that pays for any resulting research is very different from the 
President's repeated efforts to welcome interference from 
foreign governments in our elections, including by Russia, 
Ukraine, and China.
    Now, Fusion GPS was originally hired by a conservative 
outlet, the Washington Free Beacon, for its opposition 
research. Then it was retained by the Clinton campaign, which 
paid for the resulting work. It was not an illegal in-kind 
contribution from a foreign government. It was fee-for-service, 
and, by the way, it is fully reported under the FEC rules. The 
law allows campaigns to contract with foreign individuals to do 
bona fide campaign work that it pays for. And I will remind my 
colleagues that it was the Trump campaign that hired Cambridge 
Analytica, a British firm, to work in 2016.
    I think that it is a mistake to blur the facts. Closing 
gaps in our laws should not be partisan. The SHIELD Act 
responds to vulnerabilities in our system and creates a duty to 
report illicit offers of campaign assistance from foreign 
governments and their agents. It helps to prevent foreign 
interference and deter disinformation by improving transparency 
of online political ads and closes loopholes that allow foreign 
nationals and foreign governments to spend money influencing 
our elections.
    This amendment does not solve any problem at all. This 
amendment would make it hard to run a campaign. It would mean 
having to worry if the campaign signs you printed came from a 
foreign company or if the catering firm you hired had foreign 
workers, and that really has nothing to do with foreign 
influence on the campaign when you are paying for a service. If 
the campaign is paying someone for work or services, they are 
being compensated. Where that doesn't happen and a campaign is 
accepting a contribution or a thing of value from a foreign 
government, the question is what is in it for them, and that is 
an entirely different matter. So I would urge this amendment's 
defeat, and I yield back the balance of my time and would ask 
if there are other additional Members wishing to be heard on 
the amendment.
    If not, then the question is on the amendment.
    Those that are in favor will say aye.
    Those who are opposed will say no.
    In the opinion of the Chair, the noes have it.
    The Ranking Member asks for a roll call vote. The clerk 
will please call the roll.
    The Clerk. Chairperson Lofgren?
    The Chairperson. No.
    The Clerk. Chairperson Lofgren votes no.
    Mr. Raskin?
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mrs. Davis of California?
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Butterfield?
    Mr. Butterfield. No.
    The Clerk. Mr. Butterfield votes no.
    Ms. Fudge?
    Ms. Fudge. No.
    The Clerk. Ms. Fudge votes no.
    Mr. Aguilar?
    Mr. Aguilar. No.
    The Clerk. Mr. Aguilar votes no.
    Mr. Davis of Illinois?
    Mr. Davis of Illinois. Aye.
    The Clerk. Mr. Davis of Illinois votes yes.
    Mr. Walker?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, on this vote, there are six 
noes and one yes.
    The Chairperson. And the amendment is not agreed to.
    Does the gentleman have an additional amendment?
    Mr. Davis of Illinois. I do, Madam Chairperson.
    I have an amendment at the desk, No. 9.
    The Chairperson. The clerk will please report the 
amendment, and the gentlelady reserves a point of order.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 4617, offered by Mr. Davis of----
    The Chairperson. Without objection, the amendment is 
considered as read, and the gentleman is recognized for five 
minutes in support of this amendment.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    I am disappointed we couldn't see bipartisanship in the 
last amendment. I believe my bill would simply be even more 
strict to any campaign, not just Hillary Clinton's or Donald 
Trump's, to make sure we have no foreign interference.
    You know, you talked about--Madam Chairperson, you talked 
about how we don't want to have anybody blur the facts. You 
can't get much more blurry than the sheer fact that Hillary for 
America tried to hide the true source of the payments to Fusion 
GPS for an opposition research project that created a dossier 
that was investigated by a foreign national, Christopher 
Steele, and, in turn, was put together with direct connection 
to Russian operatives. I mean, you can't get much more foreign 
interference in opposition research than that. And then, when 
reporting it to the FEC, when reported to the FEC, Hillary for 
America described that as legal services--not opposition 
research, not Fusion GPS--legal services. That is a problem. 
That is a problem. I don't want any campaign doing something 
like that in the future. I don't care if they are Republican or 
Democrat. This shouldn't be a partisan issue. But this 
amendment would prohibit how the funds from going to States--
millions of taxpayer dollars from going to States that allow 
noncitizens to vote in an election for public office, how the 
funds are meant for U.S. election infrastructure. And when the 
States allows millions of noncitizens to vote in their State 
and local elections, it degrades the security of that election 
infrastructure.
    Additionally, much of the HAVA funds have been used to 
update State voter registration databases, such as my home 
State of Illinois. When you have millions of people improperly 
registered, it takes away resources that could be used for 
other areas of election infrastructure, such as newer, 
stronger, more secure election machines. I would urge a ``yes'' 
vote on this. Federal funds should not be expended on projects 
for States that don't follow Federal law. And when we are 
talking about any other investment of Federal dollars, be it 
transportation dollars, be it education dollars, cancer 
research dollars, Federal law has to be followed. So Federal 
dollars shouldn't be spent in areas in the States that 
implement portions that don't coincide with the Federal rules 
and regulations. So, with that, I yield back, and I urge a 
``yes'' vote.
    The Chairperson. The gentleman leads back.
    The gentlelady, I assume, wishes to insist on her point of 
order because this amendment is beyond the scope of this bill. 
It seeks to amend the Help America Vote Act, which is not 
included within the SHIELD Act and, therefore, is beyond the 
scope of the bill.
    I would note, however, that it is illegal for noncitizens 
to vote in Federal elections. It is illegal today. It will be 
illegal tomorrow. It will be illegal if this amendment were 
defeated. But it is not germane, so I would ask the gentleman 
if he would wish to withdraw it.
    Mr. Davis of Illinois. Madam Chairperson, yes.
    I would wish to withdraw the amendment at this time.
    The Chairperson. By unanimous consent, the gentleman 
withdraws his amendment.
    Are there additional amendments?
    Mr. Davis of Illinois. There is. My final amendment, 
amendment No. 10.
    The Chairperson. The clerk will report the amendment.
    And, without objection, the reading of the amendment is 
waived, and the gentlelady from California reserves a point of 
order.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    I would note that I don't think we will have any 
germaneness questions on this amendment. The idea that we would 
allow foreign nationals to administer our elections is 
ridiculous, but, right now, there is nothing specifically 
preventing that. This is another amendment that should pass 
with bipartisan support if we are truly trying to close every 
loophole and prevent foreign interference in our elections. I 
mean, we could, unless you pass my amendment, have Russians 
managing machine storage facilities. We could have Russians 
serving as IT professionals. And as we pointed out during 
debate on H.R. 2722, we could have Russians harvesting ballots. 
We could have Russians harvesting ballots unless this amendment 
passes.
    Let's all agree that foreign nationals should not be in 
contact with our election infrastructure. Let's pass this 
amendment. Let's make this bill a step better than it is. I 
urge a ``yes'' vote, and I yield back the balance of my time.
    The Chairperson. The gentleman yields back.
    I assume the gentlelady would like to insist on a point of 
order since, once again, this amendment amends the Help America 
Vote Act, which is not before us in the SHIELD Act or the 
amendment in the nature of a substitute. I would note that, as 
Mr. Aguilar pointed out during the debate on H.R. 1, it is also 
unnecessary. Fraud is not legal anywhere. If an H-1B visa 
holder or your husband is a TPS recipient and takes the ballot 
to the poll for you, it is not a problem or fraud. But having 
said that, this amendment is beyond the scope of the bill, and 
I wonder if the member would like to ask unanimous consent to 
withdraw it.
    Mr. Davis of Illinois. I am not going to ask. I am not 
going to offer withdrawal on this one.
    The Chairperson. Then the question is on the ruling of the 
Chair which is that the point of order is in order. The 
amendment is beyond the scope of the bill and is, therefore, 
not germane.
    Do you wish to be heard on the point of order?
    Mr. Raskin. Well, I was hoping to move to table.
    The Chairperson. Well, let's allow the gentleman----
    Mr. Raskin. Okay.
    The Chairperson. Let's hold off so that the gentleman can 
be heard to speak on the point of order. I don't want to cut 
that off.
    Mr. Davis of Illinois. If we are serious in this 
institution about making sure that the entirety of our election 
process is secure, it is amendments like this that ought to 
garner as much bipartisan support as possible. With that being 
said, we in this Committee have had bills rushed through that 
deal with election security. We have been talking about 
election security issues. You can't get much more relevant and 
germane to what we are doing when we were trying to limit 
foreign interference in our elections than this amendment. So 
that is why I am not offering a unanimous consent request to 
withdraw the amendment and take the issue of germaneness 
without a fight. I think it is germane. I think it is something 
we should be concerned about. I know I am not going to win this 
fight looking at the numbers on the other side of the dais, but 
I think it is important for the American people to understand 
that there are people in this institution that are actually 
wanting to stand up and ensure that the entirety of our 
election process is secure. I don't want Russians running 
storage facilities where our election machines are stored. I 
want to make sure they can't do that. That is what this 
amendment addresses. The bill does not address it. The 
underlying----
    The Chairperson. Correct. That is the point. The underlying 
bill--the amendment is not germane.
    Mr. Davis of Illinois. The underlying bill does not address 
the problem I just mentioned. I am not talking germaneness, 
Madam Chair. But if you want to talk germaneness, let's run the 
vote. I yield back.
    The Chairperson. All right. The gentleman yields back.
    The ruling of the Chair is that the amendment is not 
germane. We do follow the rules here in how we operate. 
Sometimes people don't like the rules, but we follow them. And 
this amendment is beyond the scope of the underlying bill. 
Therefore, it is not germane and will not be considered.
    And Mr. Raskin makes a motion to table the appeal of the 
ruling of the Chair.
    All those in favor of tabling the appeal of the ruling of 
the Chair will say aye.
    All those opposed will say no.
    In the opinion of the Chair, the ayes have it.
    A roll call is requested.
    The clerk will call the roll on tabling the appeal of the 
ruling by the Chair.
    The Clerk. Chairperson Lofgren?
    The Chairperson. Aye.
    The Clerk. Chairperson Lofgren votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    The Clerk. Mr. Raskin votes aye.
    Mrs. Davis of California?
    Mrs. Davis of California. Aye.
    The Clerk. Mrs. Davis of California votes aye.
    Mr. Butterfield?
    Mr. Butterfield. Aye.
    The Clerk. Mr. Butterfield votes aye.
    Ms. Fudge?
    Ms. Fudge. Aye.
    The Clerk. Ms. Fudge votes aye.
    Mr. Aguilar?
    Mr. Aguilar. Aye.
    The Clerk. Mr. Aguilar votes aye.
    Mr. Davis of Illinois?
    Mr. Davis of Illinois. No.
    The Clerk. Mr. Davis of Illinois votes no.
    Mr. Walker?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, on this vote, six ayes and 
one no.
    The Chairperson. And the motion to table the appeal of the 
ruling of the Chair is agreed to.
    Are there further amendments? If not, all those who are in 
favor of the amendment in the nature of a substitute will 
indicate by saying aye.
    All those who are opposed will say no.
    We will now move to the question of reporting H.R. 4617, as 
amended, favorably to the House.
    All those in favor will say aye.
    Opposed will say no.
    In the opinion of the Chair, the ayes have it.
    The Ranking Member requests a recorded vote. The clerk will 
call the roll, please.
    The Clerk. Chairperson Lofgren?
    The Chairperson. Aye.
    The Clerk. Chairperson Lofgren votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    The Clerk. Mr. Raskin votes aye.
    Mrs. Davis of California?
    Mrs. Davis of California. Aye.
    The Clerk. Mrs. Davis of California votes aye.
    Mr. Butterfield?
    Mr. Butterfield. Aye.
    The Clerk. Mr. Butterfield votes aye.
    Ms. Fudge?
    Ms. Fudge. Aye.
    The Clerk. Ms. Fudge votes aye.
    Mr. Aguilar?
    Mr. Aguilar. Aye.
    The Clerk. Mr. Aguilar votes aye.
    Mr. Davis of Illinois?
    Mr. Davis of Illinois. No.
    The Clerk. Mr. Davis of Illinois votes no.
    Mr. Walker?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Clerk. Madam Chairperson, on this vote there are six 
ayes and one no.
    The Chairperson. And, therefore, H.R. 4617, as amended, is 
reported favorably to the House.
    The motion to reconsider is laid on the table.
    Without objection, the staff is authorized to make any 
technical and conforming changes, and I want to thank all of 
our Members for participating in today's markup.
    There being no further business, without objection, the 
Committee stands adjourned.
    [Whereupon, at 4:33 p.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
